Qjo135?
No.

Supreme Court, U.S.
FILED

In The

MAR 2 2 2021

Supreme Court of the United States

OFFICE OF THE CLP.9K

ARTHUR O. ARMSTRONG
5,.

Petitioner
vs.

l

NORTH CAROLINA,
DONALD W. STEPHEN,
CHAD E. OWENS,
COLON WILLOUGHBY,
CALVIN WOODARD, JR.,
ROBERT A. EVANS,
ROLAND LOFTIN,
.tv

MILTON F. FITCH, JR.,
CYNTHIA THORNTON,
THOMAS E. ASBELL, II,
Respondents.

Petition For writ Of Certiorari

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

Petition for Writ of Certiorari

Arthur O. Armstrong, Pro se
8113 Pleasant Hill Road
Elm City, NC 27822

1

RECEIVED
mar 2 6 202i

i
QUESTIONS PRESENTED
1. Whether appellees acted in a conspiracy to deprive appellant of liberty or property
without due process of law in violation of the Fourth and Fourteenth Amendments to the
Constitution of the United States.
2. Whether appellee Donald W. Stephens acted with active connivance in the making of
the March 31,2011 driving while impaired and DWLD false reports and other conduct to
deprive appellant of liberty or property without due process of law in violation of the Fourth
and Fourteenth Amendments to the Constitution of the United States.
3. Whether appellees detained appellant in prison without due process of law in
violation of the Fourth and Fourteenth Amendments to the Constitution of the United States.

i -

it

PROCEEDING AND RELATED CASES
Armstrong v. North Carolina, et al No. 5:20-CV-00331-D. United States District Court for the
Eastern District of North Carolina, Western Division. Judgment entered August 14,2020.
Armstrong v. North Carolina, et al; No. 20-431, United States Court of Appeals for the Fourth
Circuit. Judgment entered March 10,2021.
Rule 26.1: Disclosure statement.
There is no parent of publicly held company owing 10% or more of the corporate stock.
TABLE OF CONTENT
QUESTIONS PRESENTED_______
DISCLOSURE STATEMENT

ii

TABLE OF CONTENT

ii

OPINION BELOW

1

JU RISDICTIONAL STATEMENT.....
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE......
REASON FOR FRANTING THE PETITION
CONCLUSION____

........1
1
...........2
7
___ 7

INDEX TO APPENDIX
APPENDIX A. On March 10,2021, the United States Court of Appeals for the Fourth Circuit
denied petitioner's motion for rehearing.
A

APPENDIX B: On August 14,2020, the United States District Court for the Eastern District of
North Carolina, Western Division, dismissed petitioner's complaint and denied his motion.
APPENDIX C: constitutional and statutory provisions involved set out with appropriate citations.

1
For the case from federal court, the opinion ofthe United States Court of Appeals for the
Fourth Circuit appears at Appendix A to the petition and is unpublished
The opinion of the United States District Court appears at B to the petition and is
unpublished.
JURISDICTION ,
From the federal court, the date on which the United States Court of Appeals for the
\

Fourth Circuit decided my case was March 10,2021.
CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
CONSTITUTIONAL PROVISION

Fourth Amendment
Fou rteenth Amendment
STATUTORY PROVISION
28 U.S.C.S.1245(1)
28 U.S.C.S. 1291
28 U.S.C.S. 1746
42 U.S.C.S. 1985
42 U.S.C.S. 1986
Set out verbatim, the constitutional and statutory provisions involved in the case at Appendix C.

2
STATEMENT OF THE CASE
1. Appellant resides at 8113 Pleasant Hill Road, Elm City, NC 27822.
2. The appellees acted in a conspiracy.
3. In the furtherance of such a conspiracy, the appellees failed to conform to the
requirements of the federal constitution and laws of the United States when appellees acted
with reckless indifference and wanton disregards for the truth or falsity and the rights of
appellant and others when appellees, without probable cause, acted with including but not
limited to: arbitrariness, capriciousness, elusive, malice, trickery, misrepresentation, fraud.
highway robbery, kidnapping, deception, extortion, RICO, gross negligence, defamation,
falsity, obstruction of justice, racketeering, invasion of privacy and pattern of racketeering
activities when appellees conspired to go in disguise on the highway and the premise thereof
for the purpose of depriving, either directly or indirectly, the equal protection of the law, or
of equal privileges and immunities in der the law; or for the purpose of hindering or
preventing the constituted authorities within any State or Territory from giving or securing to
appellant within any State or Territory the Equal Protection of the law to deprive the
appellant of liberty or property without due process of law when Appellee Donald W. Stevens
on March 31,2011 acted with active connivance in the making of the DWLR and driving while
impaired false reports and other conduct amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive
appellant of liberty and property when appellee ordered appellant a two year probation and
a seven (7) days active jail rime without due process oflaw in violation of the Fourth and
Fourteenth Amendments to the Constitution of the United States.
4. Appellee Colon Willoughby acted with malicious prosecution and gross negligence

3
when appetlee failed to investigate every phase of appellant's case prior to the action or
investigated every phase of the case prior to the action but failed to discover or discovered
the lack of probable cause but acted with active connivance in the making of the DWLR and
DWi false reports and other conduct amounting to official discrimination to deprive appellant
of liberty and property without due process of law in violation of the Fourth ad Fourteenth
!

Amendments to the Constitution of the United States.
5.

On May 19,2019 appellee Clads E. Owns acted with civil rights violation when

appellee assaulted, detained, harassed and tortured the appellant when appellee handcuffed
the appellant, searched and seized his property and invaded his privacy and forced the
appellant to release a urine sample to see whether he was dirty
6. On July 11,2011, appellee Clads E. Owens acted with active connivance in the making
of the probation violation false reports and other conduct amounting to official discrimination
and sent the Sheriff to appellant resident and arrested appellant without due process of law.
7. On October 7,2011, appellee Calvin Woodard trespassed on private property of
appellant, made an entry, without a warrant, onto personal premise of appellant, Folded
appellant's hands behind his back and handcuffed them. Dragged the appellant across the yard
and placed him in the cruiser and hauled him down to the magistrate's office and the
magistrate jailed the appellant and placed him under a $15,000.00 bond
8. On December 5,2011, appellee Milton F. Fitch, Jr. acted with libelous and false
statements when appellee sent false and misleading information to Roland Loftin
baiis-bondman office and stated that appellant failed to appear in court.
9.

Appellee Robert A. Evans acted with malicious prosecution and gross negligence.

10. On December 29,2011, appellee Roland Loftin trespassed on private property of

4

appellant, made an entry, without a warrant, handcuffed the appellant, searched and seized his
property and invaded his privacy and hauled the appellant down to the Magistrate's office and
magistrate jailed appellant and placed him under a $3,000.00 cash bond without due process
of law in violation of the Fourth and Fourteenth Amendments to the Constitution of the United
States..
11. On January 28,2012, appellee Milton F. Fitch, Jr. acted with active connivance in the
making of the failed to appear false reports when appellee directed the cleric to inquire with
Wake County clerk on CONFIRMATION appellant's December 5,2011 presence - confirm said
clerk. "Now appellant, said appellee Milton F. Fitch, Jr. "You have thirty days JAIL CEDIT in
violation of the Fourth and Fourteenth Amendments to the Constitution of he United States.
12.

On June 21,2012, appellee Milton F. Fitch, JR. acted with active connivance in the

making of the $3,000.00 probation fee false reports and other conduct amounting to official
discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection
Clause to deprive appellant of liberty or property without due process of law
13. Appellee Robert A Evans acted with malicious prosecution and gross negligence when
appellee failed to investigate every phase of the case prior to the action or investigated the
case prior to the action and failed to discover or discovered die lack of probable cause but
acted with active connivance in the making of the probation violation false reports and other
conduct and sentenced appellant 120 in prison without due process of law.
14. That appellee Calvin L Woodard arrested the appellant when appellee handcuffed the
appellant, searched and seized his property and invaded his privacy and walked appellant to a
jail cell and detained appellant therein for 30 days, the Wilson County detention center without
due process of law in violation ofthe Fourth and Fourteenth Amendments to the Constitution

5
of the United States.
15. On June 22,2013, appellee Cynthia Thornton made an entry, without a warrant, onto
private area of personal premise of appellant, searched and seized his property and invaded his
privacy and detained appellant for 35 days without due process of law in violation of the Fourth
and Fourteenth Amendments to the Constitution of the United States on probation violation
i

false reports.
16. On October 13,2012, in Greene County, North Carolina, appellee Thomas Asbell if.
arrested, assaulted and detained the appellant, made an entry, without a warrant onto private
areas of personal premise of appellant, searched and seized his property and invaded his
privacy without due process of law and detained appellant for thirty-five days in violation of the
Fourth and Fourteenth Amendments to the Constitution of the United States.

17.

Melton Fitch, Jr., on December 12,2011, sentenced appellant (12) twelve month in

Wilson County detention Center.
18.42 U.S.C.S. 1985 prohibits conspiracy to interfere with civil rights and 1986 proscribes
knowing neglect to prevent (or aid or abet after the fact) such a conspiracy.
19. Each conspirator had knowledge of the wrongs conspired to be done and had the
Power to prevent or aid in the preventing the commission of same but neglected or refused so
to do.
20. That appellees aided and abetted after the fact such a conspiracy.
21. Each conspirator did some act or omitted some duty and as a result of such
commission appellant was deprived of having and exercising any right or privilege as a citizen of
the United States.
22. As a direct and proximate result ofthe appellees' conspiratorial action appellant

r~

6

suffered continuing injuries, including but not limited to: mental distress, mental anguish,
injuries to his reputation, psychic injuries, humiliation and financial depletion. I pray for
judgment in the sum of $125,000,000.00.
WHEREFORE, appellant prays for judgment in the sum of $125,000,000.00 as follows:
1. Compensatory and punitive damages in the sum of $125,000,000.00 under 42
i

U.S.C.S. 1985 and 1986 Civil Rights Act.
2. Intangible harms
3. Attorney's fees, under the Attorney's Awards Act; or as a component of punitive
damages.
4. Costs and Expenses of this action and such other and further relief as the Court
Deems just and proper.
Respectfully submitted this the 20th day of March, 2021
March 20,2021
Arthur O/Arm strong, Appellant
8113 Pleasant Hill Road
Elm City, NC 27822
Appellant demands jury trial on all issues raised by the pleadings in this action.
DEM/5i5TU8Y TRIAL
March 20, 2021

Arthur (^Armstrong AppeltanJ^
VERIFICATION

I, Arthur O. Armstrong, being duly sworn, deposes and says that he is the Appellant in the
foregoing action and that the allegations set forth in the Complaint are true and correct to the
best of his knowledge and belief except for those allegations set forth on information and belief
and as to those allegations he believes them to be true.

7
. March 20, 2021
Arthur O. Armstrong, Petitioner
8113 Pleasant Hill Road
Elm City, NC 27822
AFFIDAVIT OF ARRRHUR O. ARMSRONG
I swear under penalty of perjury under United States law that the within and foregoing
statements set forth in the verification are rue and correct (28 U.S.C.S. 174f£f
March 20,2021
Arthur O. Armstrong, Appellant
REASON FOR GRANTING THE PETITION
The Petition should be granted because of a federal question secured by the federal
constitution and laws of the United States that has not been decided but should have, in the
United States Court of Appeals for the Fourth Circuit; should be settled by this Court or has
decided an important question in a way that conflicts with relevant decision ofthis Court.
CONCLUSION
Because of the conduct of the Respondents, Petitioner respectfully requ
Writ of Certiorari by granted.

____

1.A

that Petition for

March 20,2021
Arthur O. Armstrong, Petitioner

